 

 

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM 2021

 

 

PAUL WESLEY BAKER,

Petitioner
vs.

PEOPLE OF THE STATE OF CALIFORNIA

Respondent

 

 

PROOF OF SERVICE

I, John F. Schuck, do swear or declare that on this date, March 31, 2021, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS AND PETITION FOR WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first class postage

prepaid, or by delivery to a third-party commercial carrier for delivery with 3 calendar
days.

The names and addresses of those served are as follows:

State of California, Attorney General’s Office
c/o E. Carlos Dominguez

North Tower, Suite 1702

300 S. Spring Street

Los Angeles, CA 90013

BakerPOS 1
I declare under penalty of perjury that the foregoing is true-and correct.

Executed on March 31, 2021. Y/ a Ze : EG
ey aaa "el

io

? “

  

BakerPOS
